<html>
<title> - USING TECHNOLOGY TO ADDRESS CLIMATE CHANGE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                            USING TECHNOLOGY
                       TO ADDRESS CLIMATE CHANGE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2018

                               __________

                           Serial No. 115-59

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-322 PDF               WASHINGTON : 2018              
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona

                            C O N T E N T S

                              May 16, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................    16

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     9
    Written Statement............................................    11

Statement by Representative Andy Biggs, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

Statement by Representative Suzanne Bonamici, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    15
    Written Statement............................................    17

                               Witnesses:

Mr. Oren Cass, Senior Fellow, Manhattan Institute
    Oral Statement...............................................    20
    Written Statement............................................    22

Mr. Ted Nordhaus, Executive Director, The Breakthrough Institute
    Oral Statement...............................................    48
    Written Statement............................................    50

Dr. Phil Duffy, President and Executive Director, Woods Hole 
  Research Center
    Oral Statement...............................................    62
    Written Statement............................................    64

Discussion.......................................................    71

             Appendix I: Answers to Post-Hearing Questions

Dr. Phil Duffy, President and Executive Director, Woods Hole 
  Research Center................................................    98

            Appendix II: Additional Material For The Record

Statement submitted by Dr. Judith Curry, President, Climate 
  Forecast Applications Network; Professor Emerita, Georgia 
  Institute of Technology........................................   104

Slide submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   119

Article submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   120

Study submitted by Representative Conor Lamb, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   122


                            USING TECHNOLOGY



                       TO ADDRESS CLIMATE CHANGE

                              ----------                              


                        WEDNESDAY, MAY 16, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order,
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing titled ``Using Technology to 
Address Climate Change.'' I'll recognize myself for five 
minutes for an opening statement and then the Ranking Member.
    Today we will consider the use of technology to address 
climate change. We must take into account Americans' ability to 
develop innovations that will solve or mitigate challenges 
associated with climate change.
    The climate is always changing, but what remains uncertain 
is the extent to which humans contribute to that change. What 
is certain is that human ingenuity will play a significant role 
in resolving future environmental issues.
    Before we impose energy taxes or costly and ineffective 
government regulations, we should acknowledge the uncertainties 
that surround climate change research. Natural climate 
variability contributes to this uncertainty. Solar cycles, 
volcanic activity, El Nino/La Nina temperature fluctuations, 
and long-term oceanic circulation patterns are all naturally 
occurring events that have a major impact on the climate. Other 
unknowns such as the future of energy production and 
consumption also create uncertainty about future predictions.
    Advanced nuclear reactors could change the landscape of 
both the developed world as well as developing economies.
    Here's an example of an alarmist prediction not allowing 
for technological advances. A recent study found that the 
Intergovernmental Panel on Climate Change's worst-case 
scenario, which claimed further increasing emissions and 
temperatures, was based on outdated assumptions of coal usage. 
These assumptions didn't anticipate the American shale gas 
revolution and further undercut the reliability of the IPCC's 
findings.
    In the field of climate science, there is legitimate 
concern that scientists are biased in favor of reaching 
predetermined conclusions. This inevitably leads to alarmist 
findings that are wrongfully reported as facts. Anyone who then 
questions the certainty of these findings is wrongly labeled a 
denier.
    We will hear today about how the U.S. Government 
Accountability Office found that annual costs from worsening 
extreme weather events could increase as much as $112 billion 
annually by the year 2100. The GAO relied on studies that used 
outdated heat mortality rate statistics before the use of air 
conditioning became prevalent. This is a simple adaptation that 
would have changed the study's results dramatically.
    Predicting economic and environmental conditions hundreds 
of years from now while ignoring humans' capacity to innovate 
and adapt is irresponsible. It is also intentionally 
misleading--the ultimate fake news. For instance, claiming that 
extreme weather will become more costly and deadly in the 
future as a result of climate change disregards inevitable 
advances in building materials and construction design. Instead 
of relying on big government to solve climate change problems, 
we should look to technological innovations that increase 
resilience and decrease vulnerability to inevitable climate 
change.
    For decades, climate policy has focused solely on emissions 
reduction. Overreaching and costly regulations like the Obama 
Clean Power Plan do little to reduce emissions. Climate 
mitigating technologies are much more likely to benefit the 
environment. Similarly, non-binding international agreements 
with arbitrary temperature goals like the Paris Climate 
Agreement do not offer any realistic solutions and come at a 
high price to the taxpayer. Even if fully implemented by all 
195 countries, which isn't and won't happen, it would only 
reduce global temperature by 0.3 degrees Fahrenheit over the 
next century.
    Technology, though, provides the solution. Carbon emissions 
in the United States have decreased significantly over the last 
ten years thanks to fracking technology that has boosted access 
to affordable and clean burning natural gas.
    Throughout our history, technology has always led the way. 
All major breakthroughs in transportation, medicine, 
communication, and space exploration have occurred because of 
scientific discoveries. Why wouldn't technology apply to 
climate change too?
    Recognizing this, Microsoft founder Bill Gates and other 
high-tech giants recently put up $1 billion to find technology-
related solutions. Together they launched Breakthrough Energy 
Ventures in 2016 to fund research into emerging energy and 
climate technologies. This is exactly the kind of innovative 
initiative we should encourage and support.
    To solve climate change challenges, we first need to 
acknowledge the uncertainties that exist. Then we can have 
confidence that innovations and technology will enable us to 
mitigate any adverse consequences of climate change.
    [The prepared statement of Mr. Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairman Smith. That concludes my opening statement, and 
the gentlewoman from Texas, the Ranking Member, Ms. Johnson, is 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Let me start by expressing my disappointment that 16 months 
into this Administration, the Science Committee has yet to 
receive testimony from THE EPA Administrator, Scott Pruitt. Mr. 
Pruitt has appeared in front of multiple other committees 
multiple times. Yet, our repeated inquiries as to when we can 
expect Mr. Pruitt to appear in front of our committee have been 
met with unfulfilled assurances that a plan is in motion. By 
not inviting Mr. Pruitt to testify, we are--you are not only 
preventing this Committee from carrying out its oversight 
responsibilities, but you are preventing the American public 
from holding him accountable for his actions. It really is not 
too late. I ask you to commit today to holding a full Committee 
hearing before the August recess with Administrator Pruitt so 
that members on this Committee can do their jobs and get 
answers for the American people.
    Today's hearing should be an opportunity to have a 
comprehensive discussion about the necessary climate adaptation 
and mitigation strategies our country needs to address climate 
change. Instead, today's hearing is a continuation of the 
Majority's seemingly unending attempts to call into question 
climate science and promote delay instead of action.
    We will hear familiar stories from two of our witnesses who 
are making repeat appearances, one of whom who has testified 
numerous times in the past, espousing the same views on climate 
that we have heard before.
    Climate is a complex and critically important issue. We 
cannot do good oversight if we only hear from those whom we 
have already heard.
    Despite the title of this hearing, none of the witnesses 
invited by the Majority are themselves developers of 
technologies used in climate adaptation. Instead, the hearing 
seems to be focused on setting up a false policy choice between 
mitigation and adaptation strategies. In reality, adaptation 
and mitigation are not either/or solutions, and there is strong 
evidence to suggest that both adaptation and mitigation 
strategies are necessary.
    The Risky Business Project, the Intergovernmental Panel on 
Climate Change, and the 2017 National Climate Assessment all 
recognize that near-term and long-term benefits from mitigation 
and long-term benefits from adaptation are mutually achievable.
    Let me state this very clearly: the reality of climate 
change is inescapable. Our planet is warming, and human 
activity is a major driver of that warming. The visible impacts 
of climate change are everywhere, and while the Trump 
Administration has already set us on a backward trajectory when 
it comes to dealing with the causes of climate change, we must 
not permit a similar retreat when dealing with responses to 
climate change.
    And let me just say before I yield the floor, I'd like to 
note that after six years with the Committee, Pamitha is 
leaving us to work for the Union of Concerned Scientists. He 
started on the Committee as an intern and was promoted over the 
years to press, then professional staff. So we thank him for 
all of his hard work and dedication, and we wish him well in 
his new position, and you can tell the scientists that we do 
support them.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Arizona, Mr. Biggs, the Chairman of the 
Environment Subcommittee, is recognized for his opening 
statement.
    Mr. Biggs. Thank you, Chairman Smith, for holding this 
important hearing to discuss climate change policy.
    It is crucial that U.S. policy focuses on American 
technological innovation to address future environmental 
conditions.
    Let me be very blunt: I firmly believe we must eliminate 
all costly, unjustifiable regulations and international 
agreements related to climate change from our policy agenda. 
President Obama's Clean Power Plan and the Paris Climate 
Agreement were estimated to cost billions annually, despite 
having a negligible projected impact on the environment. The 
Trump administration is rightfully putting an end to these 
egregiously pointless measures. Instead we should advance 
policies that encourage the development of technology to help 
mitigate and adapt to future environmental hazards, whether 
climate-related or otherwise.
    To take just one example, hydraulic fracturing drove the 
shale gas revolution, which lowered U.S. carbon emissions in 
addition to boosting the national economy. No climate 
regulation can claim a similarly beneficial impact. Far from 
it.
    The benefits or downsides of any new technology, such as 
fracking, cannot always be predicted when first developed. 
However, one thing we can count on is that humans will continue 
to innovate and find solutions to address pressing problems. 
Our capacity for ingenuity is something that cannot and should 
not be discounted. This ability to adapt through technology 
must be recognized by policymakers and scientists alike. For 
example, claiming with certainty that islands will be 
uninhabitable in 20 years because rising seas will eliminate 
access to drinking water, as one recent study has predicted, is 
grossly irresponsible. Not only is it an exaggerated and 
unrealistic prediction, it completely ignores the potential for 
innovations in land use and advancements in technology like 
water desalinization. Ignoring innovation effectively stifles 
further discoveries and technological advancements.
    Assuming the status quo will remain in terms of technology 
and climate response ignores American ingenuity, which has 
driven economic progress and environmental improvements around 
the world. It would be foolish to craft policy in such a 
narrow-minded, stasis-reliant manner.
    I look forward to testimony from our witnesses today that 
will identify the folly of climate alarmism and emphasize the 
need for a robust debate on the future of climate policy.
    Chairman Smith, I thank you for holding this hearing, and I 
thank all of our witnesses for being here today, and I yield 
back the balance of my time.
    [The prepared statement of Mr. Biggs follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairman Smith. Thank you, Mr. Biggs.
    And the gentlewoman from Oregon, Ms. Bonamici, the Ranking 
Member of the Environment Subcommittee, is recognized for her 
statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman and Ranking 
Member Johnson, and thank you to our witnesses for being here 
today.
    Climate change is an important issue to our constituents 
and to our country. Today we should be having a robust 
conversation about climate adaptation and mitigation 
technologies and policies. We should not be using valuable time 
trying to discredit established scientific facts. The Science 
Committee should not be a forum where the human role in climate 
change is still debated. What would be best for our 
constituents would be working in a bipartisan manner to 
determine the best course of action to help them deal with the 
reality of a quickly changing climate.
    The consequences of climate change are well known, and our 
understanding about how to address the causes of climate change 
continues to improve. We can no longer sit back and debate the 
merits of taking action. The time is now.
    It's critical that we support scientific research about 
climate, and that we build on rather than break down decades 
worth of progress on this issue. Several of today's witnesses 
will try to present a false choice between climate adaptation 
and mitigation, but we know that these strategies go hand in 
hand.
    In my home State of Oregon, devastating wildfires tore 
through the region last summer, endangering lives, harming 
local tourism, and resulting in significant losses for the 
timber industry. Although it is not possible to say that 
climate change causes a particular extreme weather event, we 
need to know more about how climate change increases the 
frequency and severity of these events.
    Mitigation can provide near-term relief and help make sure 
communities are prepared to keep their families safe, but 
adaptation is necessary to address the larger issue of 
increasing frequency of severe weather events.
    Coastal communities in Northwest Oregon are facing the 
consequences of ocean acidification, rising sea temperatures 
and levels, hypoxia, and other environmental stressors. Local 
shellfish growers and commercial fisheries are seeing the 
direct effects of climate change in their industries. Both 
mitigation and adaptation strategies can help people in the 
district I represent and across the country who are directly 
affected by droughts, rising sea levels, flooding, and severe 
weather.
    The challenges of course are not unique to Oregon. In 
Alaska, for example, more than 30 towns and cities may need to 
relocate, costing hundreds of millions of dollars, because the 
permafrost is thawing and destabilizing the infrastructure.
    These issues deserve attention. We should be directing more 
resources to the full range of potential solutions that are 
available, rather than continuing to debate whether humans 
contribute to climate change, which the rest of the world 
considers settled.
    I am especially pleased that Dr. Phil Duffy from the Woods 
Hole Research Center is here to provide a scientific 
perspective on climate change and discuss the need for more 
federal research on global change. I also look forward to 
discussing the need for prompt action on climate adaptation and 
mitigation, rather than encouraging inaction with claims of 
uncertainty.
    I hope the day comes soon when this Committee can talk 
about and work on bipartisan solutions to address the important 
issue of climate change.
    And Mr. Chairman, as I yield back, I want to join Ranking 
Member Johnson in thanking Pamitha for his six years of 
dedication and good work to this Committee on Science, Space, 
and Technology, and I yield back.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Bonamici follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairman Smith. Thank you, Ms. Bonamici.
    And before I introduce our witnesses today, let me say that 
we are actually missing one individual, and she is not able to 
be with us. Her flight was canceled, not because of extreme 
weather, no, and this is Judith Curry, and we wish she had been 
able to come, but without objection, her written testimony will 
be made part of the record, and hopefully she'll be able to 
testify at another time.
    [The prepared statement of Ms. Curry appears in Appendix 
II]
    Chairman Smith. Our first witness today is Mr. Oren Cass, a 
Senior Fellow at the Manhattan Institute, where he focuses on 
energy, environment, and anti-poverty policy. Mr. Cass was the 
Domestic Policy Director for Mitt Romney's presidential 
campaign in 2012. In this role, he helped shape campaign policy 
and communication on a variety of issues ranging from 
healthcare to energy to trade. Prior to joining the Manhattan 
Institute, Mr. Cass was a Management Consultant for Bain and 
Company, where he advised global companies on implementing 
growth strategies and performance improvement programs. Mr. 
Cass holds a bachelor of arts in political economy from 
Williams College and a juris doctor from Harvard University, 
where he was an Editor and the Vice President of the Harvard 
Law Review.
    Our next witness is Mr. Ted Nordhaus, Founder and Executive 
Director of the Breakthrough Institute. He is a recognized 
author, researcher and political strategist in climate and 
energy policy. Mr. Nordhaus is the co-author of Breakthrough, 
the widely distributed book that was reviewed as ``a vital 
strain of realism'' by Time magazine. His opinion and editorial 
writings have been published in the Harvard Law and Policy 
Review, Wall Street Journal, New York Times, Scientific 
American, and other nationally distributed media. Over the 
years, Mr. Nordhaus has received the Green Book Award and 
Times' Heroes of the Environment Award. He holds a bachelor of 
arts in history from the University of California-Berkley.
    Dr. Phil Duffy, our third witness, is President and 
Executive Director of Woods Hole Research Center. Prior to 
joining WHRC, Dr. Duffy served as a Senior Adviser in the White 
House National Science and Technology Council and as a Senior 
Policy Analyst in the White House Office of Science and 
Technology Policy. Before this, Dr. Duffy was the Chief 
Scientist for Climate Central, Inc. He has held senior research 
positions with Lawrence Livermore National Laboratory and 
visiting positions at the Carnegie Institute for Science and 
the Woods Institute for the Environment at Stanford University. 
Dr. Duffy was the recipient of the United Nations Association 
Global Citizen Award. He holds a bachelor's degree from Harvard 
University and a Ph.D. in applied physics from Stanford 
University.
    We welcome you all. We appreciate your presence and your 
effort to get here. It wasn't easy for everybody. And Mr. Cass, 
if you'll begin?

                  TESTIMONY OF MR. OREN CASS,

                         SENIOR FELLOW,

                      MANHATTAN INSTITUTE

    Mr. Cass. Thank you very much. Good morning, Chairman 
Smith, Ranking Member Johnson, and Members of the Committee, 
and thank you again for inviting me to participate in today's 
hearing. My name is Oren Cass. I'm a Senior Fellow at the 
Manhattan Institute for Policy Research, where my work 
addresses environmental policy including climate change 
economics.
    My primary message to the Committee is this: The 
assumptions that we make about how human society will adapt to 
climate change are central to our understanding of the 
challenges the phenomenon presents and the costs that it will 
impose. Analyses that do not properly account for adaptation 
describe an alternative universe that does not exist. The 
estimates they produce are not plausible forecasts of future 
costs and should not be credited by policymakers.
    Let me pause here to clarify that this issue does not 
concern climate science, and also to clarify that I would agree 
with the opening remarks that mitigation as well as adaptation 
is an important part of addressing climate change, and both of 
those points are addressed in my written testimony as well.
    I believe policymakers should use mainstream climate 
science as the starting point for their work but we depart the 
world of climate science for that of climate economics when we 
turn to the question of how those changes will affect human 
society via their influence on public health or infrastructure 
or the economy.
    The common failure to consider adaptation has profound 
consequences for how people conceptualize climate change, 
leading to what I call climate catastrophism. If the entire 
brunt of a century of climate change were to land on 
civilization tomorrow, the result might well be catastrophic, 
but if those changes occur gradually, as they are expected to, 
if they emerge in a world far wealthier and more 
technologically advanced than today's, as we expect it to be, 
and if policymakers ensure that people have the information and 
incentives to plan well, something over which we have control, 
then climate change will impose real costs but ones that we 
should have confidence in our ability to manage.
    I'd like to briefly show what happens when we do this wrong 
and do not take account of adaptation properly. These are 
results of some recent studies that I describe the details of 
in my written testimony and which I'd be happy to answer 
questions about in more detail as well.
    The first is from a study published in 2015 in Nature that 
looks at the relationship between year-to-year variations in 
temperature and year-to-year variations in economic growth 
across countries, and what they found was that there's a 
relationship. Some temperatures are better than others for 
growth, and they extrapolated that relationship out through the 
end of the century, essentially assuming that by the end of the 
century, countries will react every year to significantly 
warmer temperatures as if they came from out of nowhere.
    What you're seeing here is the GDP per capita estimates 
produced by the study. You see essentially that China and India 
never grow wealthy because they become too warm. The United 
States does continue to grow, but by the end of the century has 
essentially flatlined, and if we begin to move higher up the 
chart, we reach Mongolia, which achieves per capita income 
roughly four times that of the United States, thanks to the 
warmer temperatures it would experience, or if we move even 
higher, we eventually reach all the way to Iceland at per 
capita incomes of $1.5 million, again because warmer 
temperatures would imply higher growth rates in perpetuity.
    Now, these are obviously in some cases the outlying or 
extreme examples from the study but I think that that's the 
point, that if you don't consider the fact that these 
relationships will not simply hold unchanged, you end up with 
absurd results.
    I'd like to look next at a study--excuse me, sorry, if we 
can skip to the next slide. Next slide. Thank you.
    [Slide]
    I'd like to look next at the GAO assessment of climate 
costs published last fall, which looked at two syntheses of 
costs to the United States. On the left is one published by the 
EPA, and on the right, one published by Rhodium. The Rhodium 
study finds most of its costs from extreme-heat deaths, 
literally it being so hot that tens of thousands of people die. 
The EPA study finds even higher costs from declines in air 
quality. And if we flip to the next slide, this is the EPA 
finding, that for both ozone and particulate matter, which have 
declined substantially in just the last 15 years, a very small 
uptick would essentially be the largest and in fact majority of 
all costs of climate change in the United States. This assumes 
that despite all progress to date, there is no further progress 
and we reduce pollution no more throughout the rest of the 
century.
    [Slide]
    And finally, if we flip to the last slide--this is my 
favorite--EPA looks at heat-related deaths and produces a chart 
that at first glance seems reasonable. Baseline in 2000, you 
see very small red dots, not a lot of deaths. By 2100, it's 
hotter and you see more deaths. But if you click ahead one 
click, notice what this implies, that the deaths in the North 
in 2100 will be dramatically higher than in the South in 2000, 
and if you flip ahead one more time, this is again the data on 
the EPA website showing that if we assume cities don't adjust 
in any way, deaths in places like Pittsburgh, Detroit, and New 
York will be 50 to 75 times the rate we see in Phoenix, 
Houston, and New Orleans today. This is obviously not what is 
going to happen. It's not a responsible way to connect economic 
analyses, and we should not be using it as the basis for 
policymaking.
    Thank you very much.
    [The prepared statement of Mr. Cass follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
     
    
    Chairman Smith. Thank you, Mr. Cass, very much.
    Mr. Nordhaus.

                 TESTIMONY OF MR. TED NORDHAUS,

                      EXECUTIVE DIRECTOR,

                   THE BREAKTHROUGH INSTITUTE

    Mr. Nordhaus. Thank you for having me. It's an honor to 
testify today. My name is Ted Nordhaus, and I am the Founder 
and Executive Director of the Breakthrough Institute. We're an 
environment think tank located in Oakland, California. My think 
tank counts among its senior fellows a number of prominent 
climate scientists, technologists and social scientists, and my 
testimony today will draw upon this work to present a synthesis 
reflecting our assessment of the nature of climate risk, the 
uncertainties associated with action and inaction, and 
pragmatic steps that we might take today to address those 
risks.
    To begin, let me offer a few observations about climate 
science and climate risk. First, there is a well-established 
scientific consensus regarding atmospheric anthropogenic 
climate change: global temperatures are rising, and that rise 
has been caused in significant part by greenhouse gas emissions 
resulting from the combustion of fossil fuels.
    Second, and to the best of my knowledge, none of the 
witnesses called today for either the Majority or the Minority 
contest these well-established facts.
    Third, there are a range of uncertainties beyond this 
consensus about the sensitivity of the climate, the likelihood 
of specific climate impacts, the capacity for adaptation, and 
the costs of mitigation that provide ample justification for 
either far-reaching and immediate action or no action 
whatsoever.
    So how then should policymakers respond? Let me first 
address climate mitigation. Efforts to cap price and regulate 
greenhouse gas emissions have not much affected the trajectory 
of emissions anywhere to date. Under the best of circumstances, 
they have modestly tipped the scales toward lower carbon fuels 
and technologies. For this reason, the success of efforts to 
substantially drive decarbonization to levels that diverge from 
business-as-usual trajectories will depend primarily upon the 
availability of low-carbon technologies that are cheap and 
scalable.
    Presently, there are important short-term steps that 
federal policymakers can take to assure that America sees 
continuing declines in emissions. Most importantly among these 
are measures to keep America's existing fleet of nuclear 
reactors online. We should also abandon misguided efforts to 
bail out the coal industry.
    Reducing atmospheric concentrations of greenhouse gases to 
levels sufficient to much alter the trajectory of climate 
change, however, will require a concerted and collaborative 
effort between the public and private sectors to develop a 
range of low-cost, low-carbon technologies for the 70 percent 
of emissions in the United States that emanate from outside of 
the power sector in the industrial, transportation, and 
agricultural sectors. These include advanced nuclear energy, 
carbon capture, advanced renewable and geothermal energy, and 
long-term energy store capabilities.
    Even in the best case, however, decarbonization efforts 
alone are unlikely to limit global temperatures to 2 degrees 
Celsius. For this reason, climate adaptation will play a large 
role in determining how well human societies weather a change 
in climate. Infrastructure, sea walls and flood channels, 
modern housing and transportation networks, water and sewage 
systems and similar are what makes us resilient to extreme 
climate events. As such, there are few things more impactful 
that this Congress could do than to substantially increase 
national investment in infrastructure so too recommitting 
ourselves to ensuring a comprehensive federal response to all 
natural disasters for all of America's citizens.
    So to summarize, climate change is real, its origins are 
primarily anthropogenic, and it presents risks that are 
difficult to quantify but could be catastrophic. For this 
reason, reasonable measures to mitigate and adapt to climate 
change are prudent, but climate policy debates have too often 
overemphasized mitigation at the expense of adaptation focused 
on decarbonization at the expense of other mitigation pathways, 
attempting to make dirty energy expensive rather than clean 
energy cheap, and focused heavily upon renewable-energy 
technologies to the exclusion of the broad sweep of low-carbon 
technologies that will likely be necessary to deeply 
decarbonize the global economy.
    So let me close finally with a call for moderation and 
humility on both sides of the aisle in place of bombast, 
alarmism, and denial in the face of irresolvable uncertainties 
that the issue presents America and the world will be better 
served by turning down the rhetoric and focusing on pragmatic 
measures to mitigate climate risk and adapt to risks that we 
won't be able to avoid.
    Thank you very much for considering my testimony.
    [The prepared statement of Mr. Nordhaus follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

   
    Chairman Smith. Thank you, Mr. Nordhaus.
    And Dr. Duffy.

                  TESTIMONY OF DR. PHIL DUFFY,

               PRESIDENT AND EXECUTIVE DIRECTOR,

                   WOODS HOLE RESEARCH CENTER

    Dr. Duffy. Thank you, Mr. Chairman, Ranking Member Johnson, 
and Members of the Committee for the opportunity to appear here 
today.
    In my remarks this morning, I'm going to discuss the threat 
of global climate change but I do want to mention that I 
started my career in the Nuclear Weapons Complex at Lawrence 
Livermore National Laboratory, where I worked on nuclear-
weapons testing and also on protecting the United States 
against the threat of nuclear ballistic missile attack.
    The threat that I've devoted the bulk of my career to, 
global climate change, I believe to be equally important. In my 
remarks this morning, I'm going to focus on some of the science 
of climate change and on the role of technologies in addressing 
it, and on the leadership and business opportunities that I 
believe this presents.
    The fact of global warming should be beyond question, so I 
won't review here the mountain of observational evidence we 
have documenting warming of the planet and associated related 
changes such as increases in some form of extreme weather, 
thawing permafrost, and so on.
    The scientific consensus on human causation of climate 
change is as strong as the consensus on the fact of climate 
change itself, and I would like to quote from volume one of the 
fourth National Climate Assessment. This was released last 
November by the Trump Administration, and I quote: ``This 
assessment concludes that it is extremely likely that human 
activities, especially emissions of greenhouse gases, are the 
dominant cause of the observed warming since the mid-20th 
century. There's no convincing alternative explanation.''
    Governments also recognize human causation of climate 
change. As of now, every country in the world is a party to the 
Paris Climate Agreement. It makes no sense to be part of that 
agreement if you do not recognize not only the seriousness of 
the climate threat but the human role in causing that threat.
    Turning to technologies, we need technologies for 
mitigation of climate change, that is, preventing unacceptable 
climate change; for adaptation, that is, coping with 
unpreventable climate change; and we also need technology for 
measuring emissions of greenhouse gases. And my topline message 
this morning is that I hope our government will lead the 
development of these technologies not only because we need them 
but because once again this presents an opportunity for the 
U.S. research and business communities, and that's an 
opportunity that if we don't take advantage of, someone else 
will.
    For mitigation, my first recommendation would be to 
accelerate deployment of the technologies we have now, namely 
wind and solar. We also do of course need new technologies for 
energy generation for energy storage and energy transmission. 
And because we've delayed so long in implementing effective 
climate policies, we now also need technologies to remove 
carbon dioxide from the atmosphere. And while we're developing 
those technologies, we do have an important opportunity to 
implement land management practices which can pull a 
significant quantity of carbon dioxide out of the atmosphere, 
and those same land management practices like reforestation and 
restoring wetlands and so on also have important benefits for 
climate adaptation.
    Turning now to adaptation, we need a host of technologies 
for coping with the range of climate impacts. These include 
extreme weather, infectious disease, water contamination, water 
scarcity, food scarcity, and so on. The good news is that 
adaptation measures are generally cost-effective because in 
fact we're generally underadapted and underprepared for the 
climate we have today, and if you doubt that, you need look no 
farther than Houston or Puerto Rico.
    Finally, I want to mention that we do need technologies to 
better measure greenhouse gas emissions. They say that you 
can't control what you can't measure, and any effective climate 
policy needs reliable techniques for measuring greenhouse gas 
emissions.
    So in closing, I'd like to encourage you to support 
American efforts to do the research and to develop the 
technologies that we need to tackle climate change. Addressing 
this threat is an opportunity for American leadership that I 
would hate to see us miss.
    Thank you for the opportunity to appear here this morning.
    [The prepared statement of Dr. Duffy follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Smith. Thank you, Dr. Duffy, and I'll recognize 
myself for questions.
    And Mr. Cass, let me direct my first one to you. You put up 
a couple of slides today. One had to do with the number of heat 
deaths increasing exponentially, particularly in the Northeast. 
Would you go into just some quick detail as to why that study 
was flawed? And you mentioned the Rhodium study as well, but 
take your pick. Just why are some of these studies flawed and 
why should we sort of discount them?
    Mr. Cass. Sure. Thank you. I think to understand 
conceptually why they're flawed, it's important to recognize 
that all regions, even within the United States, adapt to their 
local climate, and so when you look across the country you 
find, for instance, that people in the hotter parts of the 
country are not suffering from higher heat-related mortality 
than people in the cooler parts. The logical conclusion to draw 
from that would be that as the country gets warmer, we should 
not expect to see a lot more heat-related deaths because, 
again, people will adapt to whatever heat they face, and 
indeed, that's what the most recent published literature shows.
    What studies do instead to generate large heat death 
estimates is to look at the reaction we have seen historically 
even per hot day or per days that are especially hot for a 
location and simply extrapolate forward if we see many more hot 
days than surely we will see that many more deaths. And the EPA 
study is the best example of this where they take a city like 
Pittsburgh and they say if one percent of Pittsburgh days have 
lows above 71 degrees, we will call that extreme heat for 
Pittsburgh, and whatever the death rate they experience on 
those days they will continue to experience that death rate on 
days when the temperature is above a low of 71 even if that 
becomes very common in the future and so you see the death rate 
in Pittsburgh skyrocket if you assume that. Of course, if the 
climate in Pittsburgh shifts to be more like that of a more 
southerly city, Pittsburgh's use of air conditioning and other 
adaptive technologies will shift as well, and the result will 
likely be that we will see the same low death rate that we do 
today.
    Chairman Smith. Okay. Thank you, Mr. Cass.
    Mr. Nordhaus, I appreciate your good point that given the 
uncertainties we all could use some moderation and humility. A 
good reminder.
    What I wanted to ask you about is, you mentioned that we 
couldn't just rely upon renewable energy; we need to make 
better use of fossil fuels. Would you go into some detail or 
give examples of what you're talking about?
    Mr. Nordhaus. Well, I think the primary point that I would 
want to stress to this Committee, a couple of things. The first 
is that whatever we may think we should do, the evidence is 
pretty strong that 70 percent of U.S. energy, well over 70 
percent of U.S. primary energy still comes from fossil fuels. 
That's true globally. And despite longstanding efforts, that 
has not changed very much going all the way back to the oil 
shocks of the 1970s. So part of that we could do better. Part 
of that, there are a lot of uses of fossil fuels that we don't 
have very good alternatives for. We spend a lot of time arguing 
and talking about various technological pathways in the power 
sector, which is a little bit like looking for your keys under 
the light post because that's where the light is. That's the 
easy place where there really are good options for 
decarbonization so we like to argue about that, but once you 
get outside of the power sector into industry, heavy 
transportation, and agriculture, it gets much harder.
    Secondly, in the developed world, there are very 
significant tradeoffs. The things that make us resilient to 
climate extremes, whether they are caused by climate change or 
just normal climate variability, are infrastructure, and 
infrastructure, building infrastructure, is a really energy-
intensive business--steel, cement, things like that, and again, 
those are exactly the sectors we don't have particularly good 
alternatives, low-carbon alternatives in. So for that reason, I 
think there's important tradeoffs, especially when we think 
about poor countries and their use of fossil fuels, that we 
need to keep in mind in terms of what will make those countries 
in the coming decades most resilient to a changing climate.
    Chairman Smith. All right. Thank you, Mr. Nordhaus.
    And Dr. Duffy, I appreciated your mention of technology. 
Obviously I agree with that. You mentioned your background and 
your experience, let's call it with nuclear energy, at least 
that's the way you started at Lawrence Livermore, and I'm 
wondering if you feel that if we do develop nuclear fusion as 
many expect to in the next ten years, I mean, there's almost 
nothing else we could do that would have more of a dramatic 
impact on reducing carbon emissions, I think, than nuclear 
fusion. Do you agree with that, or what impact do you think 
that would have if we came up with a cost-effective way of 
producing that kind of energy?
    Dr. Duffy. Well, Mr. Chair, thank you for the question. I 
just want to clarify. My experience at Lawrence Livermore 
National Lab was with nuclear weapons.
    Chairman Smith. I knew that. I was actually----
    Dr. Duffy. And----
    Chairman Smith. It's still nuclear. I was hoping----
    Dr. Duffy. I'm proud to be a tree hugger but I don't think 
there's too many tree huggers who've detonated nuclear bombs.
    Chairman Smith. Okay.
    Dr. Duffy. As far as nuclear fusion goes, I mean, it's been 
30 years in the future for at least 30 years.
    Chairman Smith. Okay.
    Dr. Duffy. I will say I do support Mr. Nordhaus's opinion 
that we need to make better use and more extensive use of 
nuclear fusion.
    Chairman Smith. Okay. Thank you, Dr. Duffy.
    I'm going to do something that I don't do very often, and 
that is, without objection yield myself an additional minute, 
and the reason I'd like to do so is because Dr. Curry is not 
here but I would like to put up a slide that I was going to use 
had she been here, and I'd like all Members to take a look at 
this.
    [Slide]You will see that for the last 100 years, sea-level 
rise has been basically constant. It's been going up at about 
1.8 millimeters per year, and you'll see that there appears to 
be no correlation between the increase in the sea level and 
carbon emissions, and I just want to put that up there for our 
edification. I was going to ask Dr. Curry about it but I think 
it kind of speaks for itself.
    Dr. Duffy. I'd like to comment on that, Mr. Chair. You 
know, you've shown a sea-level record from one location.
    Chairman Smith. Right. This is San Francisco. It's also 
Boston, which appears to be----
    Dr. Duffy. The rate of global sea-level rise has 
accelerated and is now four times faster than it was 100 years 
ago.
    Chairman Smith. Is this chart inaccurate then?
    Dr. Duffy. It's accurate but it doesn't represent what's 
happening globally. It represents what's happening in San 
Francisco.
    Chairman Smith. All the charts I've seen, whether it be San 
Francisco, whether it be Boston or anywhere else show about the 
same degree of increase. I'm welcome to look at whatever you 
want to propose but this is----
    Dr. Duffy. I'd be happy to show that to you.
    Chairman Smith. These are objective charts that I've seen, 
so thank you, Dr. Duffy.
    That concludes my questions, and the Ranking Member, Ms. 
Johnson, is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Our understanding of Earth's climate system continues to 
improve, and within some of our lifetimes, we've seen the 
accuracy of our short-term weather forecasts improve 
dramatically. As a matter of fact, just the time that I've been 
in Congress, we've seen improvement in travel. Yesterday, for 
example, it took me about seven hours to get here from Dallas, 
Texas, because of weather. We didn't see the weather but it was 
predicted, and we made it and we got here.
    So Dr. Duffy, how do you respond to those who suggest that 
we cannot adequately anticipate the consequences of climate 
change in order to develop effective mitigation and adaptation 
strategies?
    Dr. Duffy. Thank you for the question, Ranking Member 
Johnson. I would say this. You know, the climate models that we 
have do faithfully reproduce the broader outlines of physical 
climate change, and these include increases in the global 
temperature, polar amplification, that is, more rapid warming, 
particularly in the North Pole, increases in precipitation and 
extreme precipitation, although those are actually 
underpredicted by climate models. The models also predict loss 
of sea ice, although again they've underpredicted the observed 
rate of loss of sea ice, and similarly, the models predict loss 
of land ice but once again have underpredicted the rate that 
that's occurred. The models predict stratospheric cooling, 
thawing permafrost, increases in heat exchange. All of these 
phenomena have been very accurately representative models.
    And I'm glad that you actually mentioned the miracle of 
weather prediction because there is a connection between making 
climate projections and the miracle of weather prediction and 
actually some of the European centers that do a very, very good 
job at day-to-day weather forecasting use literally the same 
computer program for their climate predictions that they use to 
predict day-to-day weather, and again, those are literally the 
best weather forecasts in the world today.
    Ms. Johnson. Thank you very much.
    If we veer away from looking into climate change and its 
effects and look in another direction or deny it's there at 
all, I think we'll fail to improve our predictions, and where 
do you think that will take us? Because if we can stop--we can 
stop anything we want to here but it doesn't stop climate 
change. We can deny it happens but it does happen. And so if we 
look the other way and decide that we are not going to 
research, what do you think the outcome might be?
    Dr. Duffy. Well, thank you for the question. You know, the 
outcomes from unmitigated climate change are not pretty, and 
I'm very happy to hear both of my co-witnesses supporting the 
need for both mitigation and adaptation. You know, one of the 
things that I'm most concerned about with climate change is the 
threat of crossing so-called thresholds and tipping points, and 
what that means essentially is processes which once underway 
become irreversible, and one of those is the thawing of 
permafrost, which I mentioned. Permafrost is mostly in the 
Arctic. It sounds far away but there's an enormous quantity of 
carbon tied up in frozen permafrost. It's starting to thaw. 
It's starting to release greenhouse gases. That threatens to 
become an unstoppable process, which would greatly amplify 
global warming.
    And I'll just mention one more, and that is the decay of 
the major land ice sheets. Similarly, those processes are 
probably slow but we may be very near the point where they 
become unstoppable and therefore commit the planet to many, 
many meters of sea-level rise.
    Ms. Johnson. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Johnson.
    Without objection, I'd like to put in the record, this is 
an op-ed in today's Wall Street Journal by Fred Singer. He is a 
Professor Emeritus of Environmental Science at the University 
of Virginia, and he founded the Science and Environmental 
Policy Project. The headline on this op-ed is ``The sea is 
rising but not because of climate change.''
    [The information appears in Appendix II]
    Chairman Smith. We'll now go to the gentleman from 
California, Mr. Rohrabacher, for his questions.
    Mr. Rohrabacher. Well, thank you very much. Let me just 
note before I ask any questions, I have in my career been very 
supportive of trying to develop certain technologies that I 
consider to be more efficient at providing the energy needs for 
the people of the world, whether it's nuclear energy, which 
we're talking about now, and by the way I would hope, Mr. 
Chairman, that we don't focus on the development of nuclear 
energy that is least likely to be developed. We can actually do 
fission reactors now that are very efficient and come to play 
in this issue as compared to fusion, which it seems always to 
be 20 years away, 30 years away, and always will be. We can 
produce safe nuclear reactors right now if we'd focus on 
fission and quit wasting our money on fusion, but that's a 
disagreement. Thank you.
    But also, you know, I believe in solar and wind and all the 
rest of these as long as they pencil out and what we need is a 
new battery technology, which I understand is on the way, when 
those things will actually become profitable and people will 
naturally go in that direction because, correct me if I'm 
wrong, doesn't the amount of carbon that is put in the air 
reflect the fact that we are not efficiently producing energy? 
Isn't that what we're talking about here? I believe so. But 
when you come down to this debate over adaptation versus 
mitigation, there's an insistence when people talk about 
mitigation that we control human behavior rather than having 
people naturally evolve in response to that need, and so I'm a 
little bit disturbed by, number one, that over and over again I 
hear don't ever talk about whether or not mankind is the main 
cause of the temperature changing and the climate changing. 
That's a little disturbing to hear constantly beaten into our 
heads in a Science Committee meeting when basically we should 
all be open to different points of view.
    Because the answer that we've been given in terms of 
mitigation versus adaptation is that we need controls over 
people's lives and make their decisions for them rather than 
adapt economically and elsewise. Let me ask you whether or not 
any of you on the panel would agree that solutions--I've read a 
number of studies that have indicated there's certain solutions 
that are being advocated. One study is that we should be 
eliminating pets, dogs. Dogs should be eliminated, and that's 
part of their solution that we're going to do that. There was 
one that talked about ending frequent-flier miles, and others 
who talk about how we need to have major increase in parking 
fees and gas taxes. Now, do any of you on the panel agree that 
that approach--no more dogs, you can't have a dog as your pet, 
we're going to outlaw those things, no more frequent-flier 
miles, and by the way, ordinary people benefit from frequent-
flier miles and dogs, and now you have to see them on the 
airplanes actually--versus major increases in parking fees? Do 
any of you support that type of human control in order to come 
to grips with what you're telling us is absolutely undebatable, 
that man caused global warming? Do any of you agree with any 
one of those solutions? Go ahead.
    Mr. Nordhaus. No.
    Mr. Rohrabacher. Okay.
    Mr. Nordhaus. I will say that, as I indicated in my written 
testimony, I think that modest tax, regulatory pricing policies 
can help modestly move us at a cost-effective way towards lower 
carbon technologies but the underlying sort of fundamental 
facts that will determine how far we get will be the 
availability of low-cost, low-carbon technologies, and that's 
going to require a lot of continuing innovation.
    Mr. Rohrabacher. And like as they say, the amount of carbon 
going into the air reflects that that technology is not as 
efficient as other means. Now, those of us who don't believe 
that we should be expanding the control of the government over 
our lives and that people should actually have more decisions 
rather than less, that's the area of contention that I see 
here.
    Mr. Chairman, thanks very much for this hearing.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    And the gentlewoman from Oregon, Ms. Bonamici, is 
recognized.
    Ms. Bonamici. Thank you very much, Chairman, and thank you 
again to our witnesses.
    Dr. Duffy, you mentioned when you were talking about clean, 
renewable energy sources, you mentioned wind and solar. In 
Oregon off our coast, we're doing some great research on wave 
energy and harnessing the power of the oceans. There's so much 
potential there. Our economy in the Northwest is really 
dependent on the health of the ocean and the lower Columbia 
River estuary, and people fish in our rivers and lakes and 
oceans and hike in our forests. We rely on those natural 
resources to support a significant portion of our economy, and 
many of those are vulnerable to the effects of climate change, 
and my constituents are already experiencing some challenges. 
We have wineries and farmers who are very concerned about 
drought as temperatures continue to rise. Our coastal 
communities are worried about the vitality of the commercial 
fishing and shellfish industries as high levels of carbon 
dioxide in the atmosphere are changing ocean chemistry, and I 
know they're working hard on adaptation but they're also very 
concerned about why the ocean conditions are changing and how 
they're changing.
    We've had higher than usual spring and summer temperatures 
and earlier snowmelt, changing the dynamics of the tourism 
industry, and we understand that climate change can have 
significant effects on the economic stability of a region or a 
nation.
    So would you talk a little bit about how this economic 
growth could be stalled as a result of these challenges but 
also importantly, what is the cost of inaction? My colleague 
was just pointing out that renewables make sense when they 
pencil out but what are the costs of not taking action?
    Dr. Duffy. Well, thanks so much for the question. I mean, 
you just mentioned--I mean, you just partially answered your 
own question. You listed a number of local impacts of climate 
change that are happening now, are affecting folks in your 
district. I also come from a coastal region. We have actually 
very, very similar concerns. A big part of our local and 
regional economy is based on fishing. We have serious problems 
with rapid ocean warming, with sea-level rise and so on.
    You know, you asked, you know, what are the economic 
concerns. I mean, there's a range including consequences of 
extreme weather impacts on food scarcity, impacts on water 
scarcity and on and on.
    Ms. Bonamici. Thank you. You know, we've had a lot of 
conversations in this Committee about the cost of regulation, 
especially with things like the Clean Power Plan, and should 
there be a regulation, should the market or technology solve 
the problem. Does not regulation drive the development of 
technology? If there is a regulation, does not that encourage 
the private sector and researchers to develop the technologies 
that we need to comply with regulations, Dr. Duffy?
    Dr. Duffy. You know, that's a great question, and you know, 
as I think you know, I worked for years in California, and 
there was a fascinating study done of the effect of regulation 
of both energy efficiency and refrigerants on the cost of 
refrigerators, and what it showed is that the cost of 
refrigerators historically went up, up, up, up, up until the 
onset of regulation at which point the cost of refrigerators 
went down, down, down, down, down as the size of the 
refrigerators and their energy use--well, the energy use went 
down, the size continued to increase. So yes, actually 
regulation can be a stimulant for technological innovation.
    Ms. Bonamici. I also wanted to mention, we had a lot of 
wildfires in Oregon last year. We had unusually hot and dry 
conditions, and of course, the fires and smoke created 
dangerous conditions for all populations but especially with, 
you know, women, seniors, children, people living with chronic 
health conditions, and even residents living miles away found 
ash throughout their neighborhoods. So could you discuss the 
difference between committing resources to understanding the 
connection between climate change and extreme weather events 
and simply adapting to those events as we experience them?
    Dr. Duffy. Thanks for the question, and you know, you 
mentioned wildfires specifically. There have been huge 
increases, a sixfold increase in area burned by wildfire in the 
western United States in the last 30 years. Some of that is due 
to changes in forest management practices. I saw a study 
recently that attributed roughly half of the increase in area 
burned to human-caused climate change. It's not hard to 
understand why that would be. The fire season is longer. 
Temperatures are hotter. By the end of the fire season, we have 
a lot of fuel that's getting awfully, awfully crispy, and we 
have had record number of fires and record amounts of area 
burned.
    Ms. Bonamici. Right, and my time is expired. I yield back. 
Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    And the gentleman from Alabama, Mr. Brooks, is recognized 
for his questions.
    Mr. Brooks. Thank you, Mr. Chairman.
    Ever since human beings have been on the planet, sea levels 
have risen relative to ground levels. Why is that? Any of you 
can opine as you wish.
    Dr. Duffy. Well, I'd be happy to address that. Sea levels 
over the last three million years have gone up and down in line 
with the cycles of ice ages and interglacials, and I can 
expound on the science if you wish. The recent, the last 100-
year increase in sea-level rise, as I mentioned earlier, has 
clearly been attributed to human activities. Greenhouse gas 
emissions----
    Mr. Brooks. That wasn't the question. I appreciate your 
wanting to expound on that. My statement is that since human 
beings have been on Earth, sea levels have risen. What are the 
factors that have caused it to rise?
    Dr. Duffy. Well, as I said, sea levels have gone up and 
down----
    Mr. Brooks. I'm talking net, not fluctuations.
    Let's assume that for a moment that what you're talking 
about has some kind of factual, rational basis for it that ice 
has melted. Are there other factors?
    Dr. Duffy. No, look, you know----
    Mr. Brooks. No, there are not other factors, Mr. Duffy?
    Dr. Duffy. Looking at the history of sea-level rise is very 
informative, and one of the things that we see, for example, is 
that the last time the global temperature was as high as it 
is----
    Mr. Brooks. Dr. Duffy, you're not answering my question 
again. I'm conceding for the moment that there has been ice 
meltage compared to what it was three million years ago, 
whatever, since that's the timeframe you used. I'm asking 
another question, and that is, what other factors have caused 
the sea levels to rise relative to dry land? Does anyone else 
have any--I mean----
    Dr. Duffy. Okay.
    Mr. Brooks. --in particular, Dr. Duffy, you said they're 
going to be massive. Isn't that the word that you use in your 
remarks, massive sea-level rises? Don't you think if you're 
going to make that kind of statement you ought to have some 
idea as to what all the causes of sea-level rises have been?
    Dr. Duffy. Sure, and if you're referring to ground 
subsidence, that is a factor in some regions.
    Mr. Brooks. Okay. What else? That's one. So now we've 
gotten two. What else?
    Dr. Duffy. Ground subsidence is not going to cause the 
levels of sea-level rise that arouse my concern.
    Mr. Brooks. I'm just asking for factors. I was not asking 
for your prioritizing of one over the other but you mentioned 
two. What else?
    Dr. Duffy. Those are all that I know of.
    Mr. Brooks. What about erosion? Every single year that 
we're on Earth, you have huge tons of silt deposited by the 
Mississippi River, by the Amazon River, by the Nile, by every 
major river system, and for that matter, creek all the way down 
to the smallest systems, and every time you have that soil or 
rock, whatever it is that is deposited into the seas, that 
forces the sea levels to rise because now you've got less space 
in those oceans because the bottom is moving up. What about----
    Dr. Duffy. I'm pretty sure that that's----
    Mr. Brooks. --the white cliffs of Dover, California where 
you have the waves crashing against the shorelines and time and 
time again you're having the cliffs crash into the sea? All of 
that displaces water, which forces it to rise, does it not?
    Dr. Duffy. I'm pretty sure that on human time scales, those 
are miniscule effects.
    Mr. Brooks. Okay. Well, let's talk about ice for a moment. 
Where is most of the ice located on planet Earth?
    Dr. Duffy. Antarctic ice sheet.
    Mr. Brooks. And how much?
    Dr. Duffy. I don't have a number in my head.
    Mr. Brooks. Do you have a rough estimation or idea of how--
--
    Dr. Duffy. The amount of ice in the Antarctic ice sheet if 
melted would raise global sea levels----
    Mr. Brooks. I'm not asking you how much----
    Dr. Duffy. --by 200 feet.
    Mr. Brooks. Okay. You keep going and you don't answer the 
question. My question is, how much of the ice on the Earth is 
in Antarctica? I'm not asking you to expound on anything else. 
I'm trying to limit you to that particular question.
    Dr. Duffy. I don't know the answer.
    Mr. Brooks. Do you have any idea?
    Dr. Duffy. I wouldn't want to speculate in this forum.
    Mr. Brooks. Well, would it surprise you if it's as high as 
85 to 90 percent, that that's generally where the estimates are 
of the total amount of ice is in Antarctica?
    Dr. Duffy. It would not surprise me.
    Mr. Brooks. And would it surprise you to know that as 
global temperatures rise, assuming for the moment that they do, 
that that actually increases the amount of ice that is 
collected on Antarctica?
    Dr. Duffy. That's not true, sir.
    Mr. Brooks. That's not true? Well, I made a trip down to 
Antarctica and met with National Science Foundation scientists, 
and they all agreed with global warming, and they emphasized 
that you're going to have an increase in the amount of ice in 
Antarctica because of global warming. Now, have you ever 
studied--I understand you studied climate but how about 
meteorology? Have you ever studied meteorology?
    Dr. Duffy. I have, and I'll be happy to----
    Mr. Brooks. So you understand that as the temperature----
    Dr. Duffy. We have satellite records----
    Mr. Brooks. Wait a second, please. You've answered my 
question. I don't want you to orate because I have limited 
time. If the Chair would please permit as I try to get this 
point across?
    Chairman Smith. Okay. Without objection, the gentleman is 
recognized for another 30 seconds.
    Mr. Brooks. Do you understand that as temperatures rise, 
more moisture is contained in the atmosphere and then that 
moisture in Antarctica collects on land and it takes hundreds 
and hundreds of years for that ice that is deposited on 
Antarctica to actually ever even reach the shoreline where it 
touches the oceans where it can affect in some way sea-level 
increases?
    Dr. Duffy. We have satellite records clearly documenting a 
shrinkage of the Antarctic ice sheet and an acceleration of 
that shrinkage.
    Mr. Brooks. I'm sorry, but I don't know where you're 
getting your information but the scientific data that I have 
suggests----
    Dr. Duffy. The National Snow and Ice Data Center.
    Mr. Brooks. Well, okay. I'm talking NASA and others.
    Dr. Duffy. And the National Aeronautics and Space 
Administration.
    Mr. Brooks. Well, I've got a NASA base in my district, and 
apparently they're telling you one thing and me a different 
thing but there are plenty of studies that have come out that 
show that with respect to Antarctica, that the total ice sheet, 
particularly that above land, is increasing, not decreasing. 
Now, you can make a different argument if you want to talk 
about Greenland or the Artic but that having been said, thank 
you, Mr. Chairman, for the indulgence.
    Chairman Smith. Thank you, Mr. Brooks, and the gentleman 
from Illinois, Mr. Lipinski, is recognized.
    Mr. Lipinski. Thank you.
    Dr. Duffy, in your testimony you state that technology will 
play an essential role in minimizing and adapting to the 
effects of climate change, something you think the U.S. 
government should support. You allude to the economic benefits 
that are likely to accrue to U.S. businesses as a result of 
developing these new technologies.
    I agree that the government has an important role to play 
in helping U.S. businesses lead the world in technology to 
address climate change. That's why I introduced the bipartisan 
Challenges and Prizes for Climate Act along with 13 of my 
Democratic and Republican colleagues from the Climate Solutions 
Caucus. This bill requires the Department of Energy to organize 
prize competitions around climate challenges such as energy 
efficiency, grid energy storage, and carbon capture, and 
prioritizes market-ready solutions that are made in America. 
This is one important way the Federal Government can both 
incentivize and raise awareness of technology to address 
climate change.
    I'm wondering what you think some others might be. How else 
can the government leverage the private sector to develop 
technologies and solutions that we need to address climate 
change?
    Dr. Duffy. Well, thanks for the question. You know, one 
really important measure which has been mentioned earlier would 
be to create the incentives, the economic incentives, to 
develop those technologies, and here, putting a price on carbon 
emissions, which after all corrects a market failure, is a very 
important step which would incentivize both the development and 
implementation of a lot of important technologies.
    Mr. Lipinski. Any other--well, let me move on. If we--if 
the United States, if we don't really help lead the world in 
this, what do our--what do we have to lose economically? Where 
are we right now? Where are American businesses right now 
compared to the rest of the world in developing these climate 
solutions? And if we don't do more, what do we lose 
economically?
    Dr. Duffy. Well, that's a great question, and you know, in 
the immediate term, no country is spending more on renewable 
energy than China is, and you know, I would hate to lose that 
race to them.
    You know, the other aspect of this that's very concerning 
to me is the potential brain drain aspect, and you know, 
historically, the excellence of American education and American 
research has been a magnet for talented people from around the 
world to come here and those folks have added invaluably to our 
country in many, many ways including economically, and when I 
look in the job ads section now of international scientific 
journals, it saddens me to see that where are all the jobs now. 
Well, a lot of them are in China. Most of them are in China. 
And again, you know, I would much prefer to see Americans 
investing in both the science and the technology to address 
this threat.
    Mr. Lipinski. I want to focus on something a little more 
specific. How would you characterize the nature of 
geoengineering or carbon removal as a potential option to fight 
climate change?
    Dr. Duffy. You know, I would treat those separately. Carbon 
removal is a--well, carbon removal in principal actually does 
in fact act to reverse climate change by lowering the 
concentration of carbon in the atmosphere. As I mentioned in my 
testimony, there are rather low-tech land management methods 
that can remove quite a bit of CO<INF>2</INF> from the 
atmosphere, probably not as much as need to but make a really, 
really valuable contribution, and again, you know, those 
measures have some very valuable co-benefits including, as I 
mentioned, benefits for adaptation. Technological measures to 
remove carbon dioxide from the atmosphere are under development 
at the moment. They're very expensive, and at the moment we 
don't have the ability to deploy them at the scale that we 
need.
    You also asked about so-called geoengineering, which I 
would characterize as measures to counteract the climatic 
effects of increasing greenhouse gases. I don't know anyone in 
the scientific community who's enthusiastic about deployment of 
geo engineering. I think a lot of us, however, recognize that 
this is something we need understand better. We need to 
understand the potential effectiveness, and most importantly, 
we need to understand the potential unintended consequences.
    Mr. Lipinski. Thank you. I'm out of time. I yield back.
    Chairman Smith. The gentleman yields back.
    And the gentleman from Florida, Mr. Posey, is recognized 
for his questions.
    Mr. Posey. Thank you, Mr. Chairman, and I thank the 
witnesses for their attendance here today.
    Mr. Cass and Mr. Nordhaus, do you believe Dr. Duffy's claim 
that government regulation is responsible for lowering the cost 
of refrigerators in this country? Or do you tend to believe it 
might be due to competition and improved production and 
technical advancements?
    Mr. Nordhaus. I would say probably a bit of both, and I 
don't know the specific research that he is referring to, but I 
would assume that a significant amount of the cost savings 
there were not in the actual purchase cost of the refrigerator 
but just in the energy costs associated with running it as 
refrigerators have become more efficient. I do think that 
there's a case that various regulatory measures like EnergyStar 
have significantly contributed to improving the energy 
efficiency of refrigerators----
    Mr. Posey. We're talking about costs. Okay. Thank you.
    Mr. Cass?
    Mr. Cass. I think as Mr. Nordhaus emphasized, the key 
distinction is between the upfront cost of the product 
typically and then the operating cost, and what we find with 
regulation is that if you--and we see this now with, for 
instance, CAFE standards. If you require people to purchase 
more expensive cars that use less gas, you can claim to be 
saving them money. The problem is that typically they don't 
agree, and if they did, you wouldn't need the regulation.
    Mr. Posey. That's kind of what I thought.
    Dr. Duffy, you referenced a big threat from large-scale 
emissions of greenhouse gases from thawing permafrost. How did 
the greenhouse gases get captured into the permafrost in 15 
seconds or less?
    Dr. Duffy. It's dead organic matter, dead animals and 
plants.
    Mr. Posey. All right. What was the temperature on Earth 
before the last ice age?
    Dr. Duffy. Before the last ice age----
    Mr. Posey. Yes, sir.
    Dr. Duffy. --and the last interglacials? Well, similar to 
what it was about 100 years ago.
    Mr. Posey. You think? You don't think maybe it was 30 
degrees warmer when dinosaurs roamed the Earth?
    Dr. Duffy. There certainly have been epics in the past when 
the global temperature was warmer than it is now, and there's 
evidence that during those epics there was massive release of 
greenhouse gases from frozen ground, previously frozen ground.
    Mr. Posey. Well, where did the greenhouse gases come from 
if we didn't have people to create them?
    Dr. Duffy. Oh, again, you know, the greenhouse gases that 
are tied up in permafrost, it's not really gases, but the 
carbon that's tied up in permafrost is undecayed organic 
matter.
    Mr. Posey. So that's a threat that would exist if people 
never existed?
    Dr. Duffy. It's a threat that would exist but the 
activities of people are unlocking that threat by warming the 
Arctic and causing that frozen ground to thaw.
    Mr. Posey. How many ice ages do you think we've had on this 
planet?
    Dr. Duffy. Dozens.
    Mr. Posey. Okay.
    Dr. Duffy. But, you know, just because it's happened before 
doesn't mean it's benign.
    Mr. Posey. What caused the end of the last ice age?
    Dr. Duffy. The ice ages are caused by oscillations in the 
Earth's orbital parameters.
    Mr. Posey. Yeah, the last one was caused by a cataclysmic 
collision of an asteroid on this planet, I believe.
    What do you say to people who theorize that the Earth as it 
continues to warm is returning to its normal temperature?
    Dr. Duffy. Look, you know, if you want to characterize a 
temperature above today's temperature as normal, you're free to 
do that, but that doesn't mean that's a planet that we want to 
live on. If we let----
    Mr. Posey. I don't want to get philosophical. I'm trying 
to----
    Dr. Duffy. I'm not getting philosophical. I'm getting 
extremely practical.
    Mr. Posey. You're what?
    Dr. Duffy. I'm being extremely practical.
    Mr. Posey. Yeah. Well----
    Dr. Duffy. If we let the planet warm two or three degrees, 
we will have tens of meters of sea-level rise, and the 
community where I live will essentially cease to exist.
    Mr. Posey. I don't think anybody disputes that the Earth is 
getting warmer. I think what's not clear is the exact amount of 
who caused what, and getting to that is I think where we're 
trying to go with this Committee, just a little bit 
understanding of exactly how much different causes contribute 
to the warming that we see.
    Dr. Duffy. Look, I encourage you to look at the last 
assessment report of the Intergovernmental Panel on Climate 
Change estimated the human contribution to warming over the 
last 60 or 70 years is essentially equal to the observed 
warming. In other words, they're saying humans caused 
essentially all of the observed warming over the last 60 or 70 
years.
    Mr. Posey. When do you think the turn was made from the 
1970s prediction that we were going to have another ice age, 
and that was the big threat they were telling us when I was in 
school?
    Dr. Duffy. Well, the scientific community in the 1970s 
never actually widely predicted an immediate cooling. There 
were a few popular press articles about it but it was never 
something that was widely believed in the scientific community.
    Chairman Smith. The gentleman's time has expired.
    And the gentlewoman from Connecticut, Ms. Esty, is 
recognized for her questions.
    Ms. Esty. Thank you, Mr. Chairman. I want to thank our 
witnesses for joining us here today for this important hearing.
    I want to note, Mr. Nordhaus, I want to thank you as a 
member of the Transportation and Infrastructure Committee for 
your importantly making sure everyone on this Committee and 
anyone watching understands how much of the contribution 
towards carbon and how much of the fuel consumption, the carbon 
consumption is related to the transportation and the industrial 
sectors, and that is why it's so important on that Committee, 
and we welcome your testimony on that in front of the T&I 
Committee to make that point, but I do think it also 
underscores the importance of technological innovation in a 
variety of sectors. It cannot be an appropriate answer to say 
the rest of the world doesn't develop its technology or doesn't 
advance economically but the United States is uniquely 
positioned, I would say, to advance research in all of those 
realms, which is why we have innovation being done in the 
Department of Defense, which has invested heavily because 30 
percent of its costs are in the cost of transportation and has 
recognized the value it places as well as the DOD seen the 
threat of sea-level rise being enormously threatening to global 
security as well as threatening our bases. So that is real cost 
right now, and if any of you have the figures on that, we can 
also get you to those because those are real costs and DOD is 
really worried about them right now, and that is going to 
impact taxpayer dollars as well as military preparedness, 
something that is not integrated often enough in this 
Committee.
    I hail from the State of Connecticut. We are one of the 
RGGI states. Dr. Duffy, you have lived in several of them, 
California and Connecticut. In my State of Connecticut, which 
has decided to lean in to a lower carbon future because it sees 
both the short- and the long-term advantages of that, that is 
created with our first-in-the-nation green bank over 13,000 
jobs. Those are jobs that are selling technology out of my 
district around the world. We have fuel cells that are being 
sold in Korea. We are the largest supplier of fuel cells to 
Korea, in part as part of that carbon transition.
    If we were to lean away from that, I think about this being 
like insurance for a car, or better yet, insurance on your 
house. I've never lived in a house that has burned down but I 
get insurance anyway. The concerns--and there's a lot of 
debate, especially with my colleagues saying exactly what 
percentage is due to human behavior, but if the consequences, 
if the most extreme predictions are right, are cataclysmic for 
the continuation of life on Earth for human beings, then it 
would seem prudent that we at least take some measure of 
action.
    So Dr. Duffy, could you talk about both the opportunity 
that we have from the business point of view, which is I think 
in part why so much of the business community leaned in on, 
say, the Paris Climate Accords? U.S. business leaned in and 
said yes, we want to support this because they see that 
business opportunity to sell to the entire world. And could you 
also talk about the research importance? We are very concerned, 
and we talked a lot in this Committee about China's investment 
across the board in research and getting ahead of us, whether 
it's on solar technology or other things that they will then 
license to the world. And Dr. Duffy, if you could talk a little 
bit about those business opportunities and imperatives as 
decision makers about what we can do?
    Dr. Duffy. Sure, I'd be happy to address that, and I'll 
also just echo your comments about RGGI, the Regional 
Greenhouse Gas Initiative, and as I'm sure you know, a number 
of studies have shown positive economic impacts in the nearly 
ten years that RGGI has been in place, and some of those 
positive impacts, by the way, come from improved health 
outcomes. I think the latest study documented $5.7 billion in 
savings because of improved health outcomes.
    Regarding, you know, research on technologies and the 
business opportunity, you know, again, I think it's an 
important opportunity. The world as a whole is mobilizing to 
address this global threat. It will take global cooperation to 
address this threat, and you know, look, we're the United 
States. We should be leaders here, not followers. It's as 
simple as that in my view.
    Ms. Esty. Can you flag what are some of the research 
elements that you think the Federal Government is uniquely 
positioned to do the basic research? Because obviously the 
private sector is going to do that R&D but that basic research, 
whether it be fusion, which we have a variety of opinions 
you've heard here about fusion but certainly if we were to be 
successful at fusion, that would be transformative. What are 
some of those other areas?
    Dr. Duffy. I think in general, you know, where the Federal 
Government has a role is in the early-stage research where, you 
know, the economic payoff is doubtful or is a ways down the 
road and fusion would certainly be an example of that.
    Ms. Esty. Thank you, and I see I'm out of time.
    Chairman Smith. Thank you, Ms. Esty.
    And the gentleman from Arizona, Mr. Biggs, is recognized.
    Mr. Biggs. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here to testify today. I appreciate it 
very much.
    Mr. Cass, in your written materials you cite two studies, 
one by Little--or excuse me, one by Mills and one by Basera, or 
Barreca, I guess is--I had that wrong. They take two different 
approaches to mortality rates due to extreme temperature, and 
you said in there--let's talk about that for just a second. 
They both take different approaches. Why did they take 
different approaches? What were they looking for, and why did 
they traverse the path that they did?
    Mr. Cass. Sure. I think the Mills study is kind of the 
quintessential example of ignoring adaptation. They look at 
different cities and assume that as temperatures change, cities 
will not change their response, and as a result, they produce 
very large cost estimates. The Barreca work I think is much 
more interesting and useful. They actually look at response to 
high temperatures over time, and so instead of just developing 
a homogenous response for, say, the second half of the 20th 
century, they say let's compare what happened in the first half 
to the second half or let's compare the 1960s to the 1990s, and 
by looking at it in those terms and by taking the adoption of 
air conditioning into account in particular, what they find is 
that by the 1990s, mortality related to heat has plummeted, and 
essentially they find a decline of about 80 percent from the 
first half to the second half, a decline of about half within 
the second half, and by 2004, looking at the level of air 
conditioning that's been adopted, the effect of heat on 
mortality is no longer statistically significant.
    Mr. Biggs. And have you had a chance to engage with any of 
these researchers to kind of find out why they took the path 
they took?
    Mr. Cass. I've had a number of exchanges, some of them as I 
was doing the research, some of them more recently to sort of 
ask if I've missed anything or to understand the approach 
they're taking. You know, one response I'll hear is well, we 
were only trying to show what we were trying to show, so a 
study is we stated our assumptions and you can make of it 
whatever you want. Another response is to say first of all, 
yes, we do point out that we don't take adaptation into 
account, and then in fact if you look elsewhere in the report, 
you'll see we also provide an alternative calculation for that 
conclusion. So even the Mills study, for instance, actually 
also says well, what if we assume that cities do adapt, even 
just assume everyone gets as good as Dallas at dealing with 
heat, and just with that basic assumption they find their cost 
estimate I believe falls by about two-thirds. The interesting 
thing is that that's the more interesting finding but that's 
reported as an aside. It's not something the Obama EPA chose to 
then incorporate in the estimate of costs that it highlighted.
    Mr. Biggs. Well, I happen to come from the Phoenix metro 
area, which is one of the hottest areas in the United States, 
and if you look back 70 years ago, there was about 100,000 
people. Today the metro area is five million people. So I guess 
my question to you is, have studies been done to determine what 
the variables or what--not variables but what activities have 
come about through adaptation to make, let's say, life more 
bearable in the desert?
    Mr. Cass. I mean, I think the best evidence suggests air 
conditioning, you know, looking more broadly at the economic 
decision of so many people to move to the Southwest, and even 
today we see continued movement to the Southeast, and the 
analyses of mortality suggest that adopting air conditioning is 
the best explanation of why you don't see more mortality. I 
would also say just that I think there's an important lesson to 
be drawn from the fact that Americans looking at their options, 
taking everything that they wish to take into account are 
choosing to move further south. They are voluntarily opting for 
hotter temperatures, and----
    Mr. Biggs. I love the heat, by the way.
    Mr. Cass. There you go. That sort of behavior again 
underscores that places deal with the climates that they have, 
and there are pros and cons to whatever climate you have. It is 
not correct to simply assume that if the climate changes people 
will behave as they did in the past.
    Mr. Biggs. Thank you, and I just have about 20 seconds 
left.
    Mr. Nordhaus, you mentioned that you felt like we should 
incentivize clean fuel. What would you do to incentivize clean 
fuel?
    Mr. Nordhaus. Well, I think the most important thing is 
taking steps to drive down the cost of the underling 
technologies, you know, whether that's electricity 
technologies, transportation technologies.
    Mr. Biggs. How would you do that, though?
    Mr. Nordhaus. R&D, programs to demonstrate and 
commercialize some early-stage support----
    Mr. Biggs. Who would do that?
    Mr. Nordhaus. Pardon?
    Mr. Biggs. Who would do that?
    Mr. Nordhaus. I think there are a variety of measures that 
could be taken at both the state and federal level.
    Mr. Biggs. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Biggs.
    And the gentleman from Illinois, Mr. Foster, is recognized 
for his questions.
    Mr. Foster. Thank you, Mr. Chairman. Thank you to our 
witnesses.
    First I'd like an opportunity to clear up this question 
about refrigerator capital costs and efficiency.
    Dr. Duffy, as the only one with an actual technical 
background on this panel of witnesses, can you just try to 
clarify this a little bit?
    Dr. Duffy. Sure. The study was--the study I'm referring to 
was done, I don't remember when, by the California Energy 
Commission, and the costs in question were the purchase price 
of refrigerators, not the lifetime energy costs.
    Mr. Foster. Right. And so the federal regulations regarding 
efficiency of refrigerators resulted in not only reduction in 
the electrical costs over time but also the purchase price, 
presumably because you can have a smaller motor, et cetera, and 
compressor.
    Dr. Duffy. I think that's right, and my guess is that 
what's happened is that at the onset--and it was both federal 
and state regulations. At the onset of those regulations, the 
companies were making refrigerators the same way they had for 
decades because it worked and they were making money and 
everything was fine, and I believe that the advent of 
regulations caused the engineers to take another look at it and 
not surprisingly they realized that gee, we progressed and we 
now know how to do things better than we did 20 years ago.
    Mr. Foster. Thank you, and that's a different narrative 
than we often hear in this.
    Staying with technical questions here, Mr. Cass, can you 
explain the plans that shellfish have to use air conditioning 
to adapt to climate change?
    Mr. Cass. I'm not familiar with any. It turns out that as a 
relative cost of climate change, though, and it is one that EPA 
took into account, it barely even shows up on the chart, and so 
my suggestion would not be that adaptation takes care of 
everything as I think I emphasized several times, there are 
certainly real costs to climate change but the scale of those 
costs does not look anything like the type of cataclysmic 
rhetoric that we are hearing from some members of this 
Committee, to some degree from some members of this panel, and 
also from the dollar estimates that for instance the EPA 
produced.
    Mr. Foster. But--all right. There are difficulties when you 
talk about economic modeling of the intergenerational wealth 
transfers. You know, for example, underinvesting in research on 
low-carbon technologies, high-efficiency technology and so on, 
we are imposing huge costs on the next generation, and you 
know, those are real costs that should be modeled and are 
almost impossible to. On the other hand, you don't always need 
a complete calculation, an accurate calculation, to know that 
we're making big mistakes. So that from what you know of the 
rough estimates that have been made, is it clear that we are 
underinvesting in technologies actually, Mr. Nordhaus? For 
example, the big cuts that were proposed by the Trump 
Administration to research, fundamental research on energy 
efficiency and other green technologies, is that something 
which you believe is a step in the wrong direction as a 
society?
    Mr. Nordhaus. I would say that cutting federal investment 
in energy research development and demonstration is unwise.
    Mr. Foster. Thank you.
    Mr. Cass, have you seen an economic analysis that would 
contradict that conclusion?
    Mr. Cass. I would agree with that, and my testimony 
specifically thanks Congress for maintaining that funding, and 
I think there's a good case for increasing it, but I do think 
it's also important to recognize that just as we ask the 
climate scientists to provide the best possible science on 
climate, we also need to ask economists to provide the best 
possible economics on climate, and if you look at the economics 
for climate change that are being produced, the cost estimates 
that they're delivering are not defensible, and so----
    Mr. Foster. How do you economically model, for example, the 
costs of the extinction of a species?
    Mr. Cass. I think that's very difficult to model 
economically, and I think that we need to be realistic about 
what they are, and so when you describe the huge costs that 
we're imposing on future generations, we need to define what 
those are, and certainly neither EPA nor GAO managed to find 
those.
    Mr. Foster. So you would advocate then for more effort in 
more accurately defining the climate--the cost of future 
climate change?
    Mr. Cass. Yes, absolutely, and I think it's critical in 
doing that to emphasize that adaptation is not something to be 
put to the side. Adaptation is the central question to what the 
costs will be and in many respects to what the best policy 
responses will be. We need to understand what are the things 
we're going to adapt to fairly naturally, what are the things 
we're going to adapt to but with cost. Air conditioning, for 
instance, is not free, and what if anything are the things that 
maybe we will have difficulty adapting to and we need 
contingency plans for. I have not heard good definitions of 
things that it's difficult to conceive of society adapting to 
but I certainly think that's an exercise we should be asking 
about.
    Mr. Foster. Any comments, Mr. Nordhaus?
    Mr. Nordhaus. Yeah, I think that there are just huge 
uncertainties both ways when we try to look out a century and 
think about, you know, what we can adapt to, what we can't 
adapt to, what the costs of mitigation will be. They're just--
we don't know. So you have to----
    Mr. Foster. And yet you both conclude that we're 
underinvesting as a society in----
    Mr. Nordhaus. Absolutely, and I would just make one other 
point, which is that I do want to--there are very difficult to 
quantify if not unquantifiable risks of quite rapid impacts, 
and I think as Mr. Cass has also recognized, very rapid change 
would be much more costly and difficult to adapt to, and we 
just don't know, and I think it will--I don't think more 
climate science is likely to help us better understand the 
likelihoods on timeframes that we would need to take action to 
address them, so that's not an argument against climate science 
but we should understand what sorts of uncertainties we're 
likely to be able to resolve and what sorts of uncertainties 
we're unlikely to resolve.
    Mr. Foster. Thank you, but I think it's interesting that 
you both agree that actions like the recent cancellation of 
NASA's carbon monitoring system are actually also steps in the 
wrong direction. We need more information on the time scale of 
which this problem will bite us.
    Thank you, and I yield back.
    Chairman Smith. Thank you, Mr. Foster.
    The gentleman from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Mr. Chairman.
    Mr. Cass, you mentioned the study by the EPA that found 
that Pittsburgh extreme heat and mortality will rise 
exponentially beyond levels even in Phoenix or Houston, so I've 
got a couple of questions for you. Is it true that the closer 
to the equator you get, the warmer it is?
    Mr. Cass. Generally speaking, I believe that's right.
    Mr. Weber. You believe that's right from your geography 
back in the sixth grade?
    Mr. Cass. And traveling south from time to time.
    Mr. Weber. Well, you need to come to Galveston and spend 
lots of money.
    I owned an air conditioning company for over 35 years, so 
when you start--and by the way, we loved seasons changing. We 
loved heat in Texas. And I can tell you from firsthand 
experience a couple things being in the business 35 years. 
We're not experiencing mass casualties. Now, Congressman Biggs 
from Arizona said that he loved the heat too. Over in Arizona 
they've got a dryer heat. Of course, we have the more humid 
heat. So I want you, Mr. Cass, to expand on what's wrong with 
two things if you can. I realize one's more scientific and 
one's a little less. What's wrong with the study of prediction 
of mortality in Pittsburgh, which is arguably further up north 
and a lot further away from the equator than we are in Texas, 
that they think there would be 75 times more mortalities in 
Pittsburgh than in Phoenix or in Houston? Number one, what's 
wrong with that study? And number two, isn't that a big 
hyperbole to create some kind of need to really push forward on 
more regulations?
    Mr. Cass. Thank you. The technical way of describing the 
problem I think is to say that the study assumes all things are 
held constant, and of course, that's traditionally how we 
expect economic analysis----
    Mr. Weber. But let me interject here real quick. So if that 
was true, we're closer to the equator. If it was getting hotter 
in Pittsburgh, would it be getting hotter in Texas? Would that 
be a safe assumption?
    Mr. Cass. Yes.
    Mr. Weber. And at the same rate?
    Mr. Cass. There are variations but generally speaking----
    Mr. Weber. Okay. Keep going.
    Mr. Cass. So I think the way to understand the problem is 
that they identified an effect of extreme heat days in 
Pittsburgh on mortality and assume that a day of that heat 
level will always have the same effect even if Pittsburgh's 
climate changes. That's a very poor assumption to make because 
we can see what places with warmer climates look like and how 
they respond to temperatures, and we know that they respond 
differently from Pittsburgh, and so if you were going to try to 
project how Pittsburgh would respond to a warmer climate, you 
need to look at how people in warmer climates respond. You 
can't assume that Pittsburgh is going to respond as if it still 
had----
    Mr. Weber. You'd buy adequate air conditioning. I can tell 
you from experience how that happens in the Gulf Coast.
    Mr. Cass. That's exactly right. And I think it's important 
to point out when we talk about adaptation that, you know, 
technological adaptation--and certainly that's the title of the 
hearing--is only one form of adaptation. There are biophysical 
adaptations. People do get used to the heat. There are 
behavioral adaptations. There are economic adaptations. There 
are social adaptations.
    Mr. Weber. There's probably a certain number of people in 
Pittsburgh who don't buy air conditioning because of the cost 
because they figure they can tough it out in the warmer times 
because it has a cooler climate more often more so than Texas 
does, and then even though 71 degrees to us is very, very 
cool--you know, Texas can be 95 to 100, 105--and when they get 
caught with higher temperature, in my opinion, that should be 
90, 95 or 100, depending on how much ventilation's in that 
home, then people could suffer heat strokes and be in real dire 
danger. Do you think that's part of the hype, trying to force 
more regulations on the energy industry?
    Mr. Cass. So just to clarify, the 71 degrees is the low, so 
a day with a low of 71 is a warm day, but I think you're 
exactly right that people in Pittsburgh are not going to 
respond to one very warm day a year the way they would respond 
if they had 30, and so you'd expect to see them behave 
differently in the context of a changing climate. I do think 
that part of the impetus for not including good analyses of 
adaptation in topline cost estimates is to create large topline 
cost estimates, and the fact that a lot of these analyses 
actually do provide analyses with adaptation but put those off 
to the side as an alternative case instead of as the main case 
I think is one of the problems.
    Mr. Weber. Well, I will tell you----
    Dr. Duffy. If I could offer a comment on----
    Mr. Weber. No. I'm sorry, Mr. Duffy. I'm running out of 
time. I can tell you from experience, 35 years in the air 
conditioning business, that the higher the efficiency ratings 
went up and the price was driven up, the less likely customers 
were to buy. They were hard pressed to say they'll spend $6,000 
or $7,000 for a new air conditioning system. All of a sudden 
you've created one now where you've got to be more efficient, 
better compressors and more crawl space, and now those are 
8,000 or 9,000. They're having trouble coming up with the six 
much less the eight or nine. So what do they do? They fix the 
old clunker that's terribly energy inefficient and keep it 
going for yet another year.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Weber.
    And the gentleman from Pennsylvania, Mr. Lamb, is 
recognized for his questions.
    Mr. Lamb. Thank you, Mr. Chairman, and before I ask any 
questions, I'll just testify as a southwestern Pennsylvanian 
that the good people of Pittsburgh are going to be just fine. 
We have throughout our history and I think our record of sports 
championships helps testify to the toughness that we have. 
Obviously we're very concerned about how costly these changes 
will be, especially in a part of the country like ours. People 
are elderly, and the costs of cooling your home an extra 5 
degrees will be difficult for people living on Social Security 
and pensions, but I just wanted to make that comment.
    Also, Mr. Chairman, if it's all right, I would like to 
introduce a study without objection. It is from the NASA Jet 
Propulsion Laboratory in California. It addresses the issue of 
ice losses in the Antarctic that was discussed earlier. Dr. 
Duffy was asked several questions about it, and this is just 
meant simply to show that it is a complicated issue and that it 
was government-funded NASA research that has really helped us 
improve our understanding of this complicated problem.
    Chairman Smith. Without objection, that will be made a part 
of the record.
    [The information follows:]*************** COMMITTEE INSERT 
***************
    Mr. Lamb. Thank you, Mr. Chairman.
    Now, Dr. Nordhaus--or Mr. Nordhaus, I'm sorry--if I could 
ask you a question about the importance of America's nuclear 
plants. Your testimony noted that it's important to keep these 
plants open, and you noted a few things: state and federal 
clean energy standards, intervention at FERC, and other 
measures that could do this. Could you just briefly expand on 
that? What are some other options we have to help these nuclear 
plants that are at risk of closing?
    Mr. Nordhaus. I think properly valuing both the reliability 
and the low-carbon nature of the electricity they produce, and 
there are a bunch of different ways to do that. I think that 
many states with nuclear plants that are threatened with 
closure also have renewable portfolio standards, and if we 
transition those to clean energy standards, we could both 
significantly raise the bar in terms of what the requirements 
for zero carbon energy in those states was, keep those plants 
online for quite a while longer, and at some point if it makes 
sense to close them and replace them with other--we'll know 
they'll be replaced with other zero-carbon options as opposed 
to fossil fuel-powered options so----
    Mr. Lamb. Are you aware of efforts in New Jersey, Illinois, 
New York to do exactly that? Do you support those efforts?
    Mr. Nordhaus. Yeah, I support all of those efforts, and 
again, would only suggest that we'd be much better served 
moving from a sort of one-off bailing out nuclear plants plant 
by plant to a more broader strategy to increase low-carbon 
energy on the grid by keeping all of our nuclear plants 
operating.
    Mr. Lamb. I also wanted to ask about R&D spending. I've 
read a report recently from Boston Consulting Group, and it 
suggests that the United States still leads the world in 
frontend basic R&D spending like in basic research but that 
where we have been surpassed by China is in actually bringing 
these technologies to the market, and now they're spending more 
than us in that regard. Can you talk about what we could do at 
our national labs or elsewhere to close that gap and try to get 
more American-funded research to the market in America and 
elsewhere?
    Mr. Nordhaus. Yeah, I think there's an old idea about R&D, 
which is that there's this sort of thing called basic science 
that you put in a box and you fund that and then sort of 
private firms take that and do things with it. I think that 
when you look at the Chinese model, it's very much state led. I 
think that in the United States when you really look at most of 
our greatest successes, certainly in energy but in many, many 
other technological arenas, what we've really seen are public-
private partnerships where there is significant public support 
for applied research. Often first-of-a-kind technologies are 
quite costly to build, whether it's your first nuclear plant or 
your first big carbon capture facility, and those things do 
require public support. The private sector isn't going to do it 
alone.
    Mr. Lamb. And just lastly, before we run out of time, you 
had mentioned earlier the idea of federal and state 
combinations. I think you mentioned a federal transportation 
project or demonstration when you were asked about clean fuel 
earlier and how we might bring that to market. Could you just 
elaborate on that a little bit?
    Mr. Nordhaus. Yeah. I think that there are a variety of 
efforts, longstanding efforts actually, to sort of get these 
technologies to market, and it's been both state and federal 
policy that sort of have gotten us to the point where we do 
have cleaner fuels----
    Mr. Lamb. Do you have like a specific example to illustrate 
that?
    Mr. Nordhaus. You know, going back even to the 1990s, there 
was a big federal partnership with the automakers on battery 
technology that really sort of established the trajectory that 
we're on now in terms of electric vehicles, so that would be 
one.
    Mr. Lamb. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Lamb.
    And the gentleman from Texas, Mr. Babin, is recognized.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman. Thank you to 
the witnesses as well.
    Mr. Nordhaus, it is unrealistic to assume that we will be 
able to rely on renewable energy like wind and solar in the 
near future for all of our energy needs. Is that a true or 
false statement?
    Mr. Nordhaus. That would be my view.
    Mr. Babin. Okay. How do we decide when it's time to reduce 
wind and solar subsidies to allow the market to take over?
    Mr. Nordhaus. I think that with mature wind and solar 
technologies, which is mostly what we're subsidizing now, there 
is general agreement including among proponents of those 
technologies that they are competitive in many contexts with 
fossil fuel technologies. I think we're probably at the point 
where we ought to put that proposition to the test and scale 
back subsidies. Now, I do think that there are probably a range 
of advanced renewable technologies that we may want to continue 
to provide some support for, but when you're looking at cheap 
solar, 15 percent efficiency solar panels that are being mass 
produced in China, I'm not quite sure why we're, you know, 
paying, you know, substantially continuing to subsidize them.
    Mr. Babin. I got you, and I agree with you 100 percent.
    Dr. Duffy. I'd be happy to add a comment on that if I may.
    Mr. Babin. Well, I'm not through just yet. We had the 
Department of Energy Secretary here just last week, and we 
brought out the fact that some federal agencies had formally 
been articulating and reporting on the amount of subsidies for 
solar versus fossil fuel versus wind, et cetera, and it was 
astounding to see just a few years ago like 4 years ago that we 
were spending something like 15 times more subsidizing solar 
than we were, say, fossil fuels, in fact, even 100 times in 
some cases, and all of a sudden this agency that was reporting 
this went silent. We're not able to see those reports over the 
last few years, and we don't know whether they don't want the 
public to see these huge discrepancies or what the reason is, 
but Secretary Perry said that he was going to look into this 
and start printing these reports out again. Thank you.
    Thank you. Why is it important, Mr. Nordhaus, that the 
United States not stand in the way of developing countries' 
efforts to build and improve infrastructure even if it means 
more fossil fuel consumption?
    Mr. Nordhaus. Well, as I noted earlier, when it comes to 
infrastructure, that's what makes us adaptable and resilient to 
a changing climate and to just existing climate extremes, so if 
you're concerned about the impacts of climate change on poor 
populations in the developing world, the most important thing 
that they can do certainly over the next couple of decades is 
build infrastructure, and right now a lot of that 
infrastructure still requires fossil fuels, so we should be 
clear-eyed about the tradeoffs between mitigation and 
adaptation in those particular contexts.
    Mr. Babin. Thank you.
    And Mr. Cass, in your testimony you mentioned that the 
Mills study included an alternative analysis from its main 
findings that excluded human adaptive response to temperatures. 
Do most temperature studies that you have analyzed come with 
such a disclaimer to the public that human ability to adapt is 
not considered a factor?
    Mr. Cass. Usually the study itself will state that, and I 
would say fairly clearly if you go and find the original report 
and read it, you can understand what they're doing. I think the 
problem is that by the time it gets summarized up to the GAO 
summary to policymakers, certainly by the time it gets reported 
in the newspaper, that kind of context is either lost entirely 
or put down at the bottom when in fact it's the very heart of 
the issue.
    Mr. Babin. And then also, back to you, Mr. Nordhaus, you 
testified that the U.S. carbon emissions are lower today than 
what would have been mandated by the Waxman-Markey legislation 
in 2009 that failed to pass Congress. What has been the primary 
driver in this reduction?
    Mr. Nordhaus. The biggest single driver has been the shale 
gas revolution, which I would note, you know, is a classic 
example of the sort of public-private partnership to develop, 
commercialize cheap scalable technology that we need a lot more 
of. I think that I will also note that once upon a time, we 
thought of natural gas as a bridge fuel in the power sector 
from high-carbon to low-carbon intensity. I think when you look 
at the record, having looked at generation shares in the power 
sector over the last decade, I think there's a pretty strong 
case that natural gas is mostly doing exactly that, that it has 
been displacing coal, and that in more recent years a lot of 
natural gas generation has been displaced by wind, which is the 
other, the second largest driver of falling emissions in the 
power sector.
    Mr. Babin. And I can vouch for that because my home 
district of southeast Texas had a brand-new biomass plant meant 
to take wood products and convert them into electricity to be 
sold on the grid, and yet within just a few short years later 
this brand-new plant is now sitting idle because of the cheap 
natural gas feedstocks that we have today, so anyway, thank you 
very much, and Mr. Chairman, I'll yield back.
    Chairman Smith. Thank you, Mr. Babin.
    The gentleman from Florida, Mr. Crist, is recognized.
    Mr. Crist. Thank you, Mr. Chairman.
    I am from Florida. I first want to thank the witnesses for 
being here today. I appreciate your time. I represent on the 
west coast of Florida Pinellas County, which is the St. 
Petersburg, Clearwater area. Pinellas County happens to be a 
peninsula, and Florida, as you're aware, is a peninsula also, 
and some make the argument that Florida may be the state that 
is most susceptible to rising sea levels.
    Having said that, Dr. Duffy, I'd like to ask you, what 
would you say are the three greatest causes of climate change, 
if you could do that?
    Dr. Duffy. Well, there's really two major causes, and the 
first is--well, human emissions of greenhouse gases generally 
and that comes from two sources. One is burning of fossil 
fuels, and the other is land-use practices like deforestation 
and also agriculture. Agriculture historically has released a 
large quantity of carbon dioxide into the atmosphere.
    Mr. Crist. How so?
    Dr. Duffy. Through tilling of soil. Agriculture also 
releases other greenhouse gases besides CO<INF>2</INF>: 
methane, nitrous oxide, methane through livestock largely, 
nitrous oxide through fertilizers. Agriculture food production 
is a very significant source of human greenhouse gas emissions.
    Mr. Crist. You said that the first cause is human 
emissions? Is that how you described it?
    Dr. Duffy. Yes, sir, and within the category of human 
emissions, the biggest contribution historically has been 
burning of fossil fuels.
    Mr. Crist. And what would be the simplest way to stem the 
tide of that level of fossil fuel burning?
    Dr. Duffy. Well, what needs to happen is adoption of 
carbon-free energy sources as we've been discussing here this 
morning.
    Mr. Crist. And which do you think are the most effective?
    Dr. Duffy. Well, as I said, you know, I would argue for 
accelerated deployment of the technologies we have today, which 
are mainly wind and solar. I think Mr. Nordhaus has argued 
persuasively for the need to keep nuclear power in the mix, and 
I agree with that, but those are the technologies that we have 
today. I do also support the development of new technologies 
and new ideas.
    Mr. Crist. You know, when you think about how much we 
utilize coal, fossil fuels as an energy source, and automobiles 
are, I assume, a big contributor to carbon emissions as well, 
if we had all cars become electric, would that have a 
significant impact on the reduction of emissions?
    Dr. Duffy. It would. In the United States, the 
transportation sector, which is of course more than just cars, 
the transportation sector contributes roughly 25 percent of our 
greenhouse gas emissions. In California where I've spent most 
of my life, it's actually much higher proportion, almost 50 
percent, 40, 50 percent. You know, certain----
    Mr. Crist. Because of the amount of automobiles?
    Dr. Duffy. We drive a lot in California. You know, I agree 
with Mr. Nordhaus that, you know, certain parts of the 
transportation sector are pretty easy to electrify, and cars 
are certainly an example of that. I mean, we have electric cars 
now. They're treat. I drive one. Other parts of the 
transportation sector will be much, much more difficult. We 
haven't mentioned aviation but that's probably the best 
example.
    Mr. Crist. Great. Thank you very much. I appreciate your 
time. I yield back.
    Chairman Smith. Thank you, Mr. Crist.
    And the gentleman from California, Mr. Takano, is 
recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Duffy, did you have anything more to say about 
renewables, claims being made about the viability of 
renewables?
    Dr. Duffy. Yeah. Well, on the economics, I mean, there 
are--and I guess there's conflicting figures but fossil fuels 
have certainly been heavily subsidized as well, and I've seen 
figures suggesting that fossil fuels are actually more heavily 
subsidized than renewables.
    The other thing that's important to mention about cost is 
that for fossil fuels, there's tremendous environmental costs 
associated with the use of fossil fuels, which are not 
reflected in the price, and we've been focusing today on the 
climate consequences of fossil fuels but there's also very, 
very important public health consequences, and just to give you 
an example, particulate pollution from use of coal even today 
kills about 10,000 Americans a year. Now, that number has come 
down dramatically in large part because of EPA regulation on 
coal-burning power plants, and I'd also add to that that if you 
look and you compare mortality from coal use in China to 
mortality from coal use in the United States, and I'm not 
talking about different amounts of coal being used, I'm saying 
per ton of coal burned, the mortality in the United States is 
20 times less than that in China, and that's because we have 
very effectively and cost-effectively regulated the air 
pollution from coal burning.
    Mr. Takano. I'm curious about something. I struggle with 
this idea of nuclear power being a carbon-free source. I mean, 
I hear you saying that you agree, Mr. Nordhaus, that you don't 
want to rule it out as part of the mix that we need to employ 
to reduce the amount of carbon we emit. Is there--but isn't 
there some problem that we have with managing the spent fuel? 
Isn't there some enormous subsidy that the government will have 
to--or at least use the leverage of its power to force 
communities who don't really want to have the risk of the spent 
fuel in their backyard or nearby for those communities that do 
produce the fuel? I mean, presumably everybody would benefit 
from it. There's some generalized socialized good that comes 
from it but how do we think about this?
    Mr. Nordhaus. Well, look, nuclear power is not without its 
issues, and you mentioned disposal of spent fuel. There's, you 
know, also legitimate concerns about weapons proliferation. I 
will say, you know, a couple points though. I mean, it can be 
used effectively. At one point I think the country of France 
generated 80 percent of their electricity from nuclear power. I 
would also say that, you know, the safety issues with nuclear 
power have been greatly exaggerated, not to say they don't 
exist but if you look at the actual safety record of nuclear 
power in the United States, I don't think there's been one 
human death attributed to nuclear power in the United States, 
and that's remarkable. And as I said, fossil fuels are 
extraordinarily dangerous. You know, even solar panels, there's 
some amount of mortality. People fall off roofs and so on.
    Mr. Takano. This is a much deeper conversation, I would 
say, but a recent report by the Department of Defense on 
climate risk to DOD infrastructure that was recently submitted 
to Congress was determined to have had significant edits made 
from a draft version from December 2016. Major changes in the 
report include omission of references to climate change.
    Dr. Duffy, how important is it to ensure that accurate 
scientific assessments regarding impacts due to climate change 
be made available to the broader public and to our military 
specifically?
    Dr. Duffy. Thanks for the question. You know, the military 
leaders that I've talked to clearly recognize the threat that 
global climate change poses for their operations and their war-
fighting capabilities, and I think that that threat needs to be 
recognized, and I would hate to see our fighting men and women 
placed at unnecessary risk because we're afraid to confront 
this threat.
    Mr. Takano. Well, what are the dangers of playing down the 
role of climate impacts on infrastructure, both military and 
non-military, to try and stay--in order to try and stay, quote, 
unquote, apolitical?
    Dr. Duffy. You know, the danger is that we don't build the 
right infrastructure, you know, and we do--we have--we face a 
backlog of decaying infrastructure in this country, 
infrastructure of all sorts, not just transportation 
infrastructure--energy infrastructure and so on. We need to 
invest in new infrastructure, and as we do that--and I've been 
involved in some major water infrastructure projects in 
California and, you know, these major physical infrastructures 
typically are designed to last 50 or 100 years, and you know, 
what we did when we designed water infrastructure in California 
is to think ahead and what is the climate and hydrology of the 
next 50 or 100 years going to look like, and that's what the 
water agencies in California do and that's what we should do 
generally. We need to design the infrastructure around the 
climate of the future, not the climate of the past.
    Mr. Takano. Thank you. My time is up.
    Chairman Smith. Thank you, Mr. Takano.
    Let me thank you all for being here today. I think this was 
a very worthwhile discussion of various challenges that we 
face, and I was really pleased to see more agreement than 
disagreement on the need and reliance upon innovation and 
technology in the future to address climate change as well. I 
appreciate the testimony and the manner today. You all 
reflected the moderation and humility that Mr. Nordhaus 
mentioned, and we have not always had that when we discussed 
this subject, so I appreciate both, as I say, what you said and 
how you said it. So thanks again for being here.
    The record will remain open for two weeks for additional 
written comments and questions from Members, and we stand 
adjourned.
    [Whereupon, at 12:09 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
                   
Responses by Dr. Phil Duffy

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




                Statement submitted by Dr. Judith Curry
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                
                


                Slide submitted by Chairman Lamar Smith
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                


       Article submitted by Ranking Member Eddie Bernice Johnson
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
              Study submitted by Representative Conor Lamb
              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              

                                 <all>
</pre></body></html>
